<html>
<title> - AMERICA'S GROWING HEROIN EPIDEMIC</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





 
                   AMERICA'S GROWING HEROIN EPIDEMIC

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                 HOMELAND SECURITY, AND INVESTIGATIONS

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 28, 2015

                               __________

                           Serial No. 114-45

                               __________

         Printed for the use of the Committee on the Judiciary
         
         
         
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       
         
         
         


      Available via the World Wide Web: http://judiciary.house.gov
      
      
                            _______________
      
                      U.S. GOVERNMENT PUBLISHING OFFICE
 95-685 PDF                    WASHINGTON : 2015       
_________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office,
      Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001    
     
     
     
      
      
                       COMMITTEE ON THE JUDICIARY

                   BOB GOODLATTE, Virginia, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        JERROLD NADLER, New York
LAMAR S. SMITH, Texas                ZOE LOFGREN, California
STEVE CHABOT, Ohio                   SHEILA JACKSON LEE, Texas
DARRELL E. ISSA, California          STEVE COHEN, Tennessee
J. RANDY FORBES, Virginia            HENRY C. ``HANK'' JOHNSON, Jr.,
STEVE KING, Iowa                       Georgia
TRENT FRANKS, Arizona                PEDRO R. PIERLUISI, Puerto Rico
LOUIE GOHMERT, Texas                 JUDY CHU, California
JIM JORDAN, Ohio                     TED DEUTCH, Florida
TED POE, Texas                       LUIS V. GUTIERREZ, Illinois
JASON CHAFFETZ, Utah                 KAREN BASS, California
TOM MARINO, Pennsylvania             CEDRIC RICHMOND, Louisiana
TREY GOWDY, South Carolina           SUZAN DelBENE, Washington
RAUL LABRADOR, Idaho                 HAKEEM JEFFRIES, New York
BLAKE FARENTHOLD, Texas              DAVID N. CICILLINE, Rhode Island
DOUG COLLINS, Georgia                SCOTT PETERS, California
RON DeSANTIS, Florida
MIMI WALTERS, California
KEN BUCK, Colorado
JOHN RATCLIFFE, Texas
DAVE TROTT, Michigan
MIKE BISHOP, Michigan

           Shelley Husband, Chief of Staff & General Counsel
        Perry Apelbaum, Minority Staff Director & Chief Counsel
                                 ------                                

Subcommittee on Crime, Terrorism, Homeland Security, and Investigations

            F. JAMES SENSENBRENNER, Jr., Wisconsin, Chairman

                  LOUIE GOHMERT, Texas, Vice-Chairman

STEVE CHABOT, Ohio                   SHEILA JACKSON LEE, Texas
J. RANDY FORBES, Virginia            PEDRO R. PIERLUISI, Puerto Rico
TED POE, Texas                       JUDY CHU, California
JASON CHAFFETZ, Utah                 LUIS V. GUTIERREZ, Illinois
TREY GOWDY, South Carolina           KAREN BASS, California
RAUL LABRADOR, Idaho                 CEDRIC RICHMOND, Louisiana
KEN BUCK, Colorado
MIKE BISHOP, Michigan

                     Caroline Lynch, Chief Counsel

                  Joe Graupensperger, Minority Counsel
                  
                  
                  
                  
                            C O N T E N T S

                              ----------                              

                             JULY 28, 2015

                                                                   Page

                           OPENING STATEMENTS

The Honorable F. James Sensenbrenner, Jr., a Representative in 
  Congress from the State of Wisconsin, and Chairman, 
  Subcommittee on Crime, Terrorism, Homeland Security, and 
  Investigations.................................................     1
The Honorable Judy Chu, a Representative in Congress from the 
  State of California, and Member, Subcommittee on Crime, 
  Terrorism, Homeland Security, and Investigations...............     2
The Honorable Bob Goodlatte, a Representative in Congress from 
  the State of Virginia, and Chairman, Committee on the Judiciary    24

                               WITNESSES

The Honorble Michael P. Botticelli, Director, White House Office 
  of National Drug Policy Center
  Oral Testimony.................................................    26
  Prepared Statement.............................................    29
John (Jack) Riley, Acting Deputy Administrator, Drug Enforcement 
  Association
  Oral Testimony.................................................    48
  Prepared Statement.............................................    50
Nancy G. Parr, Commonwealth's Attorney, City of Chesapeake, VA
  Oral Testimony.................................................    58
  Prepared Statement.............................................    60
Angela R. Pacheco, First Judicial District Attorney, Santa Fe, NM
  Oral Testimony.................................................    76
  Prepared Statement.............................................    78

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Material submitted by the Honorable Judy Chu, a Representative in 
  Congress from the State of California, and Member, Subcommittee 
  on Crime, Terrorism, Homeland Security, and Investigations.....     4

                                APPENDIX
               Material Submitted for the Hearing Record

Questions for the Record submitted to John (Jack) Riley, Acting 
  Deputy Administrator, Drug Enforcement Association.............    98


                   AMERICA'S GROWING HEROIN EPIDEMIC

                              ----------                              


                         TUESDAY, JULY 28, 2015

                        House of Representatives

                   Subcommittee on Crime, Terrorism, 
                 Homeland Security, and Investigations

                       Committee on the Judiciary

                            Washington, DC.

    The Subcommittee met, pursuant to call, at 10:06 a.m., in 
room 2141, Rayburn Office Building, the Honorable F. James 
Sensenbrenner, Jr. (Chairman of the Subcommittee) presiding.
    Present: Representatives Sensenbrenner, Goodlatte, Gohmert, 
Chabot, Forbes, Poe, Gowdy, Labrador, Buck, Bishop, and Chu.
    Staff present: (Majority) Allison Halataei, Parliamentarian 
& General Counsel; Robert Parmiter, Counsel; Scott Johnson, 
Clerk; (Minority) Joe Graupensperger, Counsel; Kurt May, 
Counsel; Tiffany Joslyn, Counsel; and Veronica Eligan, 
Professional Staff Member.
    Mr. Sensenbrenner. The Subcommittee will be in order. 
Without objection, the Chair will be authorized to declare 
recesses this morning at any time.
    We welcome our witnesses today.
    Our Nation faces a profound challenge with a growing heroin 
epidemic. Last year the number of heroin-related deaths in 
Milwaukee County, Wisconsin, which includes part of my 
district, grew by a shocking 72 percent, while Superior in 
Northwestern Wisconsin suffered six overdoses in 6 days this 
past February. Clearly, this is a problem that does not 
discriminate by race or class and transcends geography.
    Earlier this year, the White House Office of National Drug 
Control Policy released the 2013 Drug Overdose Mortality Data 
from the Centers for Disease Control and Prevention. The data 
shows that while drug deaths related to prescription opioids 
has remained stable since 2012, the mortality rate associated 
with heroin increased by 39 percent, by more than triple the 
levels in 2012. That represents the third year in a row that 
the number of heroin deaths has increased nationwide.
    This past weekend the Washington Post reported the tragic 
story of a family in Maine that lost a child in nearly a second 
to heroin laced with phenotil, an opioid analgesic 80 to 100 
times more powerful than morphine. Heroin cut with phenotil has 
been responsible for a rash of overdoses and deaths across the 
country. Shockingly, the fact that a particular batch of heroin 
has killed someone is often what attracts addicts to it because 
they know it will deliver an extremely potent high.
    It is obvious, then, that the solution to this problem must 
involve appropriate access to treatment, as well as 
enforcement. That is why earlier this year I introduced H.R. 
953, the Comprehensive Addiction and Recovery Act of 2015. This 
legislation would take a number of important steps to combat 
the heroin epidemic.
    For example, the bill addresses the link between 
prescription opioids and heroin by requiring the Department of 
Health and Human Services to convene a task force to develop 
best practices for pain management and prescribing prescription 
drugs and share those with the appropriate authorities. The 
legislation also authorizes grants that provide for 
alternatives to incarceration for veterans, as well as those 
individuals with a substance use disorder, mental illness, or 
both. And finally, it would give priority to awarding grants to 
those states that provide civil liability protection for first 
responders, health professionals and family members 
administrating naloxone to counteract opioid overdoses.
    I also have introduced a bipartisan criminal justice reform 
act, the Safe Justice Act. This legislation promotes drug and 
substance abuse treatment programs over harsher sentences. We 
know that approximately 60 percent of prisoners have substance 
and addiction disorders, yet only 11 percent receive treatment. 
It is no wonder why recidivism rates are as high as they are. 
This is not a crisis we can simply incarcerate ourselves out 
of.
    The bill would authorize the use of medication-assisted 
treatment for the treatment of heroin and opioid dependence in 
the Bureau of Prisons, residential substance abuse treatment 
programs.
    Finally, the Safe Justice Act would offer training to 
Federal law enforcement officials to help them better identify 
and respond to individuals with drug and substance abuse 
issues. I look forward to hearing from the witnesses today 
about additional approaches to curb this epidemic.
    At this time, I would like to yield to the gentlewomen from 
California, who is the Ranking Member pro tem of this 
Subcommittee today, Ms. Chu.
    Ms. Chu. Thank you, Mr. Chair.
    Today's hearing concerns finding the best means to respond 
to the increasing use of heroin in this country, which is 
tragically proving to be more deadly than in the past. Despite 
the heroic efforts of our Federal law enforcement and the DEA, 
the volume of heroin coming into this country continues to 
rise. Every year brings new records in the amounts of drugs 
seized at our border by interdiction programs. From 2008 to 
2012, the DEA noticed a 232 percent increase in heroin seizures 
along America's Southwest border.
    The rate of state and local law enforcement seizures of 
heroin continue to rise as well. Still, the current level of 
heroin use indicates that the substance is widely available. It 
is now cheaper to acquire, and it has no geographical 
boundaries.
    Over 600,000 Americans use heroin, to compound the health 
risk that this poses. The heroin sold today is more potent and 
deadlier than ever before. Deaths due to overdose have risen 
significantly in the last several years. In the last reported 
year of 2013, 8,257 people died from a heroin overdose. An 
additional 16,235 died from opioids.
    Heroin overdoses in the U.S. have nearly tripled between 
the years of 2010 and 2013, according to the CDC. Deaths due to 
heroin overdose now exceed traffic accident deaths in the U.S.
    It is time that we acknowledge the fact that we are dealing 
with a public health care crisis driven by strong demand for 
opioid drugs.
    Where did this great demand come from? Most experts agree 
that prior to increased use of heroin, millions of Americans 
became addicted to opioid prescription drugs. The correlation 
is so strong that experts believe that 80 percent of current 
heroin users began as abusers of prescription pain killers. To 
complete this perfect storm, the price of heroin has fallen to 
new lows, $5 to $10 per day. In comparison, prescription 
opioids cost about $80 per day.
    For those already addicted to an opioid prescription drug, 
heroin becomes an attractive option. In response, many states 
are implementing drug treatment programs for those addicted to 
both prescription drugs and heroin. State reactions include 
revisiting older forms of treatment such as methadone 
maintenance, and new approaches including programs for better 
oversight of prescription medications.
    Many police departments across the country are employing 
the use of the drug naloxone, an antidote to heroin overdose to 
reduce deaths. There are now hundreds of police departments in 
29 states that stock and administer naloxone. Naloxone 
administered by police is now credited with saving the lives of 
over 10,000 Americans since 1996. Police departments are also 
working with prosecutors' offices across the country to create 
programs to divert users to treatment facilities rather than 
courts, detention facilities, and prisons. This effort supports 
a more permanent solution to the health crisis we face. It 
reduces crime rates and the expenses of incarceration, while 
allowing courts and police departments to allocate resources in 
a manner best suited to protecting our citizens.
    As we consider proposals to address the increased use of 
heroin, we would do well to consider the lessons of prior 
responses to drug abuse. An incarceration-forced approach has 
not solved this public health crisis. Our focus should be to 
eliminate impediments to delivering substance abuse treatment 
to those in need, reduce the harms posed by heroin, and educate 
our citizens to prevent substance addictions.
    I look forward to the discussion of this problem and the 
best ways that government can help address it. I would like to 
submit for the record a letter from the Drug Policy Alliance.
    Mr. Sensenbrenner. Without objection, the record will be so 
embellished.
    [The information referred to follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
     
                      __________
    Mr. Sensenbrenner. I now recognize the Chairman of the full 
Committee, the gentleman from Virginia, Mr. Goodlatte, for his 
opening statement.
    Mr. Goodlatte. Thank you, Chairman Sensenbrenner.
    I am pleased to be here today at this important hearing to 
examine the growing epidemic of heroin abuse in our Nation.
    Over the past several months, we have seen an alarming 
increase in both the availability and use of heroin. This has, 
not surprisingly, had profound and tragic consequences. Every 
day, it seems, brings new stories of overdose deaths occurring 
across the country, including in my district. Since January, 
there have been 11 heroin-related overdoses in the Roanoke 
Valley, resulting in nine deaths.
    Earlier this year, the Washington Post reported that the 
legalization and subsequent availability of high-grade 
marijuana to American consumers has led Mexican drug cartels to 
increase the amounts of heroin and methamphetamine they are 
trafficking across the U.S.-Mexico border. Since 2009, heroin 
seizures along the border have nearly tripled, as law 
enforcement seized 2,181 kilograms of Mexican heroin last year 
alone.
    These are alarming statistics. However, the grim reality is 
that they should surprise no one. Drug trafficking is an 
extremely profitable business, run by criminals who are 
interested in one thing: money. Given the increasing 
availability of marijuana in the United States, and the 
related, ongoing epidemic of heroin use, drug traffickers have 
decided to cash in on the misery of American citizens.
    Additionally, the Drug Enforcement Administration estimates 
that the United States has 600,000 heroin users, which is three 
times the number in 2012. Tragically, that number is expected 
to rise. That is because there are an estimated 10 million 
Americans who are currently addicted to prescription opioids, 
including such drugs as Vicodin, OxyContin, and Percocet. Once 
someone is addicted to a prescription opioid, the need to 
satisfy their addiction outweighs the stigma attached to heroin 
use. Additionally, it is far easier to pay $10 for a dose of 
heroin than $80 for an oxycodone tablet.
    It is no exaggeration to say that heroin use has reached 
epidemic levels across this Nation, including in my home state 
of Virginia. It is not an urban problem or a rural problem, but 
an American public health and safety problem.
    However, despite the increase in heroin and meth 
production, despite the ongoing heroin epidemic, despite the 
dramatic surge in deaths, and despite the clear evidence that 
illicit controlled substances and their purveyors pose a lethal 
threat to the American people, the Obama administration has 
continued to shirk its duty to protect this Nation from 
dangerous narcotics.
    I firmly believe any solution to the heroin epidemic must 
have three parts: one, discouraging the use of this dangerous, 
highly addictive drug; two, providing appropriate treatment to 
addicts; and three, ensuring law enforcement zealously pursues 
the criminals who bring this poison into our communities.
    I look forward to the witnesses' testimony today.
    Mr. Sensenbrenner. Without objection, all Members' opening 
statements will appear in the record at this point.
    We have a very distinguished panel today, and I will begin 
by swearing in our witnesses before introducing them. If you 
would, please, all rise.
    Do you solemnly swear that the testimony you are about to 
give to this Subcommittee is the truth, the whole truth, and 
nothing but the truth, so help you God?
    Let the record reflect that all of the witnesses responded 
in the affirmative.
    The gentleman from Virginia, Mr. Forbes, has a 
distinguished witness, and I will allow him to introduce 
Commonwealth Attorney Parr at this point, and then I will 
introduce the next three witnesses.
    Mr. Forbes. Thank you, Chairman Sensenbrenner, for holding 
this important hearing today and inviting our distinguished 
guests to share their experiences.
    As you mentioned, one of our witnesses today is Nancy Parr, 
who served as the Commonwealth Attorney for the City of 
Chesapeake since being first elected in November 2005. During 
her 10 years of service, she has implemented new programs and 
promoted community outreach, in addition to carrying out the 
traditional role of a prosecutor's office in Chesapeake. Her 
programs include seven Girls Empowerment conferences, four Boys 
Leadership conferences, seven Traveling the Road to Success 
multi-week programs, and five Playing on the Right Team 
basketball tournaments.
    Prior to her current role, Ms. Parr was a prosecutor in 
Suffolk for 10 years and before that had worked in Chesapeake 
since 1994. For six of those years, she also served as a 
Special Assistant United States Attorney in the Eastern 
District of Virginia.
    In addition to her public service, Ms. Parr is a member of 
many boards and organizations and volunteers her time to 
charitable organizations, including the Virginia Association of 
Commonwealth Attorneys, where she was president from 2014 to 
2015; Commonwealth's Attorney Service Council, where she was 
chairman from 2014 to 2015; State Crime Commission Governor's 
Task Force on Prescription Drug and Heroin Abuse; Secure 
Commonwealth Panel Subcommittee, Justice Reinvestment 
Initiative Work Group; Board of Correctional Education; 
Virginia State Bar Council; Board of Governors for the Criminal 
Law Section of Virginia State Bar; Virginia's Adult Fatality 
Review Team; State Child Fatality Review Team; Domestic 
Violence Advisory Committee; Boys and Girls Clubs of Southeast 
Virginia Chesapeake Division; and the Women's Club of South 
Norfolk.
    Ms. Parr is a graduate from the University of Virginia with 
high distinction, and from T.C. Williams School of Law at the 
University of Richmond.
    Ms. Parr, thank you for accepting our invitation today, and 
I look forward to hearing your testimony as you share with the 
Committee more about the efforts you are championing in our 
district and my home town.
    And with that, I will yield to Chairman Sensenbrenner to 
introduce our other witnesses.
    Mr. Sensenbrenner. Thank you very much, Mr. Forbes.
    First, Mr. Michael Botticelli is the Director of the 
National Drug Control Policy, where he has served since 
November of 2012. Previously, Mr. Botticelli served as Director 
of the Bureau of Substance Abuse Services at the Massachusetts 
Department of Public Health. He holds a Bachelor of Arts degree 
from Siena College and a Master's in Education from St. 
Lawrence University.
    Mr. Jack Riley is the Acting Deputy Administrator of the 
Drug Enforcement Administration. He is the highest ranking 
career special agent at the DEA. Prior to his appointment as 
the Chief of Operations, Mr. Riley served in many other 
leadership positions during his distinguished career at the 
DEA. He received a Bachelor of Science degree in Criminal 
Justice from Bradley University and a Master's degree in Public 
Policy Administration from the University of Illinois.
    Ms. Angela Pacheco was the first woman elected to the First 
Judicial District Attorney's Office. Her legal career has 
consisted primarily of criminal prosecution in which she has 
tried a number of high-profile cases. Prior to becoming an 
attorney, Ms. Pacheco worked as a social worker for 13 years in 
Northern New Mexico. She received a Bachelor of Arts in Social 
Work from the College of Santa Fe, and her Juris Doctorate from 
the Hamline University School of Law.
    I would ask each of you to summarize your testimony. 
Without objection, the witnesses' written statements will be 
entered into the record in their entirety.
    You have something with a red, yellow, and green light in 
front of each of you. I assume that you know what all of that 
means.
    So, Mr. Botticelli, you are first.

  TESTIMONY OF THE HONORBLE MICHAEL P. BOTTICELLI, DIRECTOR, 
       WHITE HOUSE OFFICE OF NATIONAL DRUG POLICY CENTER

    Mr. Botticelli. Chairman Sensenbrenner, Chairman Goodlatte, 
Representative Chu, and Members of the Subcommittee, thank you 
for the opportunity to be here today to discuss the 
Administration's response to the epidemic of opioid abuse, 
particularly the rise in heroin use and overdose deaths.
    ONDCP produces the National Drug Control Strategy, which is 
the Administration's primary blueprint for drug policy. The 
Strategy treats our Nation's substance use problem as public 
health challenges, not just criminal justice issues.
    The stark increase in the number of people using heroin in 
recent years has become a significant public health issue in 
our country, and opioid misuse can have devastating 
consequences. As we heard, overdose deaths involving heroin 
have increased sharply in recent years. Of the 44,000 drug 
overdose deaths in 2013, heroin was involved in over 8,200, up 
from 5,900 in 2012.
    As communities and law enforcement struggle with an 
increased number of overdose deaths, heroin use and increasing 
heroin trafficking, it is important to note that the vast over-
prescribing of prescription drugs and easy access to diverted 
opioids is fueling our opioid drug use problem.
    Approximately 18 billion opioid pills were dispensed in 
2012. This is enough to give every American 18 years and older 
75 pain pills. Even though data indicate that over 95 percent 
of prescription opioid users do not initiate heroin use, four 
out of five new users of heroin have used prescription drugs 
non-medically. Given this relationship, we cannot develop a 
public health response to heroin use without making it part of 
a response to prescription opioid use.
    While heroin is traditionally regarded as an issue facing 
large urban areas, we are seeing a shift in the demographic of 
heroin use. Increasingly, heroin use overdose deaths and their 
consequences are being seen in suburban and small-town America. 
A recent CDC study shows that heroin use rates remain highest 
among males, but heroin use is doubling among women and has 
more than doubled among non-Hispanic Whites.
    We also know from this same study that past-year alcohol, 
marijuana, cocaine, and opiate pain reliever misuse or 
dependence were each significant risk factors for heroin abuse 
or dependence.
    ONDCP has used its role as coordinator of the Federal drug 
control agencies to bolster support for substance use disorder 
treatment and overdose prevention efforts and coordinate a 
government-wide response. In 2011, the Administration's plan to 
address the sharp rise in prescription opioid drug misuse was 
released. This plan contains action items categorized in four 
categories: education of prescribers and patients; increased 
drug monitoring programs; proper medication disposal; and law 
enforcement efforts.
    Recently, the Administration convened the Congressionally-
mandated Interagency Heroin Task Force, co-chaired by ONDCP and 
the Department of Justice, to more closely examine the 
Administration's efforts and to devise recommendations in what 
more we can do.
    We have seen overdose from prescription opioid leveling 
off, but unfortunately this is coupled with a dramatic 39 
percent increase in heroin-involved overdose deaths from 2012 
to 2013. To address the overdose death issue, we have been 
working to increase access to naloxone for first responders and 
individuals close to those with opioid drug use disorders. Hand 
in hand with these efforts are efforts to promote Good 
Samaritan laws so witnesses to an overdose will take steps to 
help save lives.
    Law enforcement nationwide has risen to this challenge of 
the increase in opioid use and overdose deaths. They are 
working hand in hand with members of the public health 
community. But it is critically important for the medical 
establishment to work with us to meet the challenges of 
increasing access to treatment for individuals with opioid use 
disorders. Primary care physicians have an opportunity for 
early intervention, as do emergency department physicians, to 
treat substance use disorders early and to intervene before 
they become chronic. And it is vital that individuals with 
opioid use disorders receive evidence-based care and treatment. 
Medication-assisted treatment with FDA-approved medications, 
when combined with behavioral therapies and recovery, has shown 
to be the most effective treatment for opioid use disorders. 
Just this weekend, Secretary Burwell announced an additional 
$33 million in funding to states to expand the use of 
medication-assisted treatment, and an additional $100 million 
to fund improved access to care and services at community 
health centers nationwide.
    HHS is also releasing guidance to states to help implement 
innovative approaches to substance use disorder treatments. The 
Administration has also proposed $99 million in the Fiscal Year 
2016 budget request over Fiscal Year 2015 for treatment and 
overdose prevention efforts.
    In addition, given the connection between injection opioid 
drugs and infectious disease transmission, public health 
strategies are necessary to prevent the further spread of 
infectious disease. The recent HIV and hepatitis C outbreak in 
Indiana is a stark reminder of how opioid abuse can spread 
other diseases, how comprehensive public health measures such 
as syringe services programs need to be part of the response, 
and how rural communities with limited treatment capacity may 
experience additional public health crises.
    In conclusion, we will continue to work with Congress and 
our Federal partners on the public health and public safety 
issues resulting from the epidemic of non-medical prescription 
opioid use and heroin use. Thank you for your time.
    [The prepared statement of Mr. Botticelli follows:]
    
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
       
                               __________
    Mr. Sensenbrenner. Thank you, Mr. Botticelli.
    Mr. Riley?

 TESTIMONY OF JOHN (JACK) RILEY, ACTING DEPUTY ADMINISTRATOR, 
                  DRUG ENFORCEMENT ASSOCIATION

    Mr. Riley. Chairman Sensenbrenner, Chairman Goodlatte, 
Congressman Chu, and distinguished Members of the Subcommittee, 
thanks for the opportunity to discuss heroin, its use and 
availability, and DEA's response.
    DEA's single mission is enforcing the Controlled Substances 
Act, and heroin has always been a major focus of our efforts 
over the years. Sadly today, 120 Americans will die as a result 
of drug overdose. Heroin and prescription painkillers cause 
over half of those fatalities. Accordingly, DEA views the 
opioid addiction epidemic as really the number-one problem 
facing the country.
    I have been with DEA almost 30 years, and I have to tell 
you I have never seen it this bad. Heroin destroys individuals, 
families, and communities. The vast majority of the heroin 
abused in the United States is manufactured outside of our 
country and smuggled across our Southwest border. In recent 
years, we have seen an increase in poppy cultivation and heroin 
production in Mexico. As a result, Mexican heroin is more 
prevalent on our streets today, accounting for approximately 
half of the domestic supply.
    The role of Mexican organized crime is unprecedented, which 
is why DEA's relationship with our Mexican counterparts and our 
presence along the border is so vital. DEA is addressing this 
evolving threat by targeting the highest-level traffickers and 
the vicious organizations they run. I have personally spent the 
bulk of my career chasing the man I consider to be the most 
dangerous heroin dealer in the world, Chapo Guzman. He and his 
Sinaloa Cartel dominate the U.S. heroin market.
    DEA focuses its resources on disrupting and dismantling 
these organizations, both at home and abroad. That means 
targeting the intersections between Mexican organized crime and 
violent urban gangs distributing the heroin on their behalf. 
The relationship between these two criminal entities can only 
be described as dangerous and toxic.
    Heroin can be found in virtually every corner of our 
country, in places I have never seen it before, large and 
small, urban and rural. Today, heroin is far different than it 
was just 5 years ago. It is cheaper, higher in purity, and can 
be smoked and snorted, much like powder cocaine. Unfortunately, 
there is no typical heroin addict. The problem transcends all 
demographic and social/economic lines.
    Knowing this drug is a source of so much violence in our 
communities is really what keeps me up at night. I know from 
experience the more we do to reduce drug crime, the more we 
will do to reduce all violent crime. While Special Agent in 
Charge of the Chicago Field Division, we developed a model of 
cooperation and collaboration that I believe is making a 
difference there and across the country. The Chicago Heroin 
Strike Force began with a shared belief among Federal, state, 
and local law enforcement, political leaders, community 
leaders, and prosecutors that together we could effectively 
target violent heroin organizations trafficking in heroin.
    As a result of our efforts, seizures dramatically 
increased, as did the number of arrests and convictions of drug 
traffickers, primarily those connected to violence. We also 
dismantled criminal organizations responsible for the 
distribution of hundreds, even thousands of kilos of heroin and 
other drugs. Consequently, we made our communities safer.
    This new and innovative strategy also allows us to work to 
the street level to prevent violent crime, while at the same 
time to pursue the investigation into the highest level of 
cartel leadership, wherever that takes us. We are actively 
looking to make this a DEA model across the country.
    Just as we cannot separate violence from drugs, we cannot 
separate controlled prescription drug abuse from heroin. As a 
result, DEA has established highly effective tactical diversion 
squads across the country, 66 in total, as part of the 
commitment to target the critical nexus between the diversion 
of prescription drugs and heroin. Indeed, we are taking steps 
to remove unwanted, unneeded and expired prescription drugs 
from medicine cabinets. In fact, on September 26, 2015, DEA 
will host its 10th national take-back initiative.
    I know firsthand these threats are an urgent challenge and 
a danger to the communities and the lives of our citizens, but 
law enforcement is not the sole answer. Prevention, treatment, 
education and awareness are critical to our success. Everybody 
plays a role in this problem, from parents, community leaders, 
educators, faith-based organizations, coaches and athletics, 
and the medical community. This is a marathon, not a sprint, 
but together we will produce the results you seek and the 
American people demand. Thank you.
    [The prepared statement of Mr. Riley follows:]
    
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
        
                  __________
    Mr. Sensenbrenner. Thank you, Mr. Riley.
    Ms. Parr?

 TESTIMONY OF NANCY G. PARR, COMMONWEALTH'S ATTORNEY, CITY OF 
                         CHESAPEAKE, VA

    Ms. Parr. Mr. Chairman, Members of the Committee, I 
appreciate the opportunity to be here today and to speak to 
you.
    For the past 12 to 18 months, I have learned a great deal 
about drug overdose deaths, prescription and illegal drugs, and 
part of that is because I serve on the State Child Fatality 
Review Team and we are reviewing poisonings of our youth, and 
that includes narcotics, and also with a number of adult 
overdose deaths in my city.
    For the past 30 years as a prosecutor, I have learned a lot 
about distributing drugs, and I have learned about simply 
possessing drugs. There is a difference. There is a big 
difference.
    For the past 30 years as a prosecutor, I have learned a lot 
about property crimes, public safety, and what victims of 
crimes and law-abiding citizens expect and deserve from their 
local law enforcement and from their state law enforcement.
    I appreciate the hold that drugs have on some people. We 
may all have family or friends, or friends who have children 
who are addicted to either prescription drugs or heroin or 
cocaine. I appreciate the pain that they experience for what 
they go through. And I appreciate that very few people who are 
addicted to drugs or to anything can break the cycle of 
addiction by themselves and alone. But I also know that many of 
them die alone.
    And I also know that we all want to save lives.
    Users, whether they are incarcerated or not, should have 
access to good, affordable treatment. Dealers should be 
incarcerated. Store owners should not have their merchandise 
stolen by addicts who are in there stealing to support their 
habit. Law-abiding citizens should be able to live peacefully 
in their homes and in their neighborhoods without dealers 
servicing their clients on the street corners, in the parking 
lots, or in the house next door. And they should also not be 
subject to being in the middle of the crossfire when the wars 
break out amongst the gangs and the drug dealers over who is 
going to run what street corner or what street. We have 
innocent people being shot and killed throughout this country 
because of drug dealers engaging in gunfire.
    The generations before us did not find a way to stop drug 
use or abuse, and I don't think anybody realistically thinks 
that this generation is going to do so either. But we can all 
work together to diminish the devastation of the impact of the 
drugs.
    Now, all of the disciplines involved in this have to be at 
the table because I am a prosecutor, I am not a therapist. I 
don't know what therapies work. I can listen and I can learn. 
So we all have to be at the table.
    The comprehensive Addiction and Recovery Act I support very 
strongly, and I have permission from the National District 
Attorneys Association to state that the Association supports it 
also because of the three important things: the connection 
between prescription drugs and heroin use; alternative 
evidence-based programs for incarcerated veterans; substance 
abuse and mental health. They often go hand in hand together. 
And grants for money for naloxone for local law enforcement.
    There are five components that I see, and each one serves a 
very valid purpose: prevention, intervention, treatment, 
diversion, and incarceration.
    Thank you.
    [The prepared statement of Ms. Parr follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
   
   
                  __________
    Mr. Sensenbrenner. Thank you very much.
    Ms. Pacheco?

    TESTIMONY OF ANGELA R. PACHECO, FIRST JUDICIAL DISTRICT 
                     ATTORNEY, SANTA FE, NM

    Ms. Pacheco. Good morning, Chairman Sensenbrenner and 
Members of the Committee. Thank you for the opportunity to 
appear today. My name is Angela Pacheco, and I am the elected 
DA for the First Judicial District in New Mexico. I am here to 
talk to you about hope.
    As a prosecutor, every day I make dozens of decisions that 
impact someone's life. I could sit here and tell you all the 
horrors associated with drug use, but as an elected official 
who is constantly being bombarded with the ills of society on a 
daily basis, wouldn't you rather hear about giving someone 
hope?
    Our community, like so many, has experienced the ravages of 
heroin addiction for years. As a prosecutor, I have personally 
prosecuted three generations of families addicted to heroin and 
associated crimes. Every day in the courtroom, we see the same 
individuals addicted to opiates, day in and day out, who are 
released from custody and told to obey all laws and stay clean, 
with little to no treatment. And, of course, in 2 weeks, when 
they report to their probation officer, they will be given a 
urine specimen cup, told to provide a urine sample, the sample 
will test positive for opiates, then the person will be 
arrested, placed in custody, go back to the court, then is 
released from custody, told to obey all laws, stay clean, and 
the cycle continues.
    We all know that the person is addicted to heroin. Of 
course, they will test positive. Just because someone tells 
them or orders them to stop using, do you really think that is 
going to last very long? Anyone that has ever raised children 
knows firsthand that you can't make someone do something unless 
they want to. The definition of insanity is we keep repeating 
the same mistakes over and over and expect a different result. 
That is madness.
    So in 2014, Santa Fe became the second city in the Nation 
after the City of Seattle to implement a Law Enforcement 
Assisted Diversion program, referred to as LEAD, for low-level 
drug offenders. Our LEAD program is community policing at its 
best. A police officer on the streets knows his or her 
community. Who better than a police officer to divert someone 
into a program?
    Let me tell you how LEAD works. A police officer is called 
to a local grocery store on a shoplifting call where he 
encounters Mary, a known heroin addict that he has arrested 
several times before. Instead of booking and arresting her, he 
offers her the LEAD program. The agreement he makes with Mary 
is that she must complete the LEAD application process within 
72 hours. If she does, the officer will not file criminal 
charges on the shoplifting at the grocery store. If she agrees, 
the officer then contacts a LEAD case manager and arranges for 
the two to meet. The case manager asks Mary, ``What can I do to 
help you? What do you need?'' Then the two of them develop an 
action plan. They start with what are her basic needs. For 
example, she may need housing, child care, assistance in 
filling out a job application or a GED registration, whatever 
it takes to get her life back.
    Remember, Mary has been through the system and has lost 
everything due to her addiction to heroin--friends, family, and 
children.
    LEAD has a case management committee that meets every 2 
weeks to discuss Mary's progress. The committee consists of 
police officers, prosecutors, public defenders, case managers, 
and therapists. Everyone is given an opportunity to provide 
input on Mary's progress. Everyone is in agreement that Mary 
will slip and there will be missteps, but Mary will have a 
safety net of individuals ready to support her.
    Our LEAD program isn't for everyone, but it is a start for 
a number of reasons. It is about understanding that an opiate 
addiction is truly a public health issue and not a criminal 
matter. It is about recognizing that a person with an opiate 
addiction is a person, not just another statistic, not another 
criminal defendant for me to prosecute, but someone whose life 
does matter.
    The twin purposes of LEAD are to save money and time. Also 
but more importantly, LEAD is about saving lives. LEAD is about 
empowering the person and giving them hope.
    [The prepared statement of Ms. Pacheco follows:]
    
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
        
                  __________
    Mr. Sensenbrenner. Thank you very much.
    We will begin questions under the 5-minute rule, and I will 
yield myself 5 minutes to ask the first series of questions.
    Ms. Pacheco, I agree with you that merely throwing somebody 
in jail and then having them come out and probably go back to 
the bad ways that got them to jail in the first place is 
something that ought to be addressed. Can you give me an 
estimate of the recidivism rate of those who have gone through 
the LEAD program and graduated and ended up finding out--
everybody finds out that it didn't work?
    Ms. Pacheco. Certainly. Mr. Chairman, Santa Fe's program 
has been in existence for 1 year and, as such, we don't have 
the kind of statistical data that, let's say, Seattle does. 
Seattle has shown that in their program--and Santa Fe is 
modeled after it--the recidivism is--I want to make sure I have 
the correct number for you. I had it marked here for you. I am 
sorry, sir. It would be 80 percent less, Mr. Chairman.
    Mr. Sensenbrenner. It is 80 percent less than the 
recidivism rate before the program started in Seattle?
    Ms. Pacheco. Correct.
    Mr. Sensenbrenner. Well, let me say that I think this is 
probably the most important thing that we ought to look at, 
because as demand goes down, the profits that are made by the 
dealers go down as well, and we can talk about saving lives and 
giving people hope. In my home community in Southeastern 
Wisconsin, we have had a rash of deaths as a result of heroin 
overdose. Attorney General Brad Schimel of Wisconsin last week 
convened a task force to try to deal with this both from a law 
enforcement as well as a treatment and rehabilitation 
standpoint, and the bill that I introduced with other Members 
of the Committee was made at the suggestion of Governor Walker.
    What advice would any of you give to the Attorney General 
of Wisconsin on how to deal with the task force that he has 
convened so that it can be effective, and why don't you start, 
Mr. Botticelli?
    Mr. Botticelli. One of the areas that I think you have 
heard today--and we have been working with many, many states 
and Attorneys General in terms of helping with state responses 
to that. I think the overall goal is that this has to be a 
comprehensive response, that people know, quite honestly, that 
it is a multi-dimensional problem that needs a multi-pronged 
approach. So prevention, treatment, recovery support services, 
as well as a role for our local law enforcement too in terms of 
not about incarcerating people with addiction but going after 
the supply of drugs that are on our streets that are fueling 
this epidemic. So it really needs to be a multi-pronged 
approach.
    As you mentioned, as I think many local law enforcement 
people are understanding the fact that they can't arrest their 
way out of this problem, and that they also have a role in 
terms of reducing overdoses. So we have really been, I think, 
amazed in terms of local law enforcement's rise to the call in 
terms of preventing overdoses.
    But this is really a multi-dimensional issue here that 
requires a comprehensive response. Everybody, as Mr. Riley 
talked about, has a role here. So whether that is law 
enforcement, the public health community, faith leaders, it is 
about bringing people together, looking at the evidence about 
what is effective, and implementing those responses.
    Mr. Sensenbrenner. Ms. Parr, do you have anything to add to 
what Mr. Botticelli has said?
    Ms. Parr. Well, Mr. Chairman, I am serving on the 
Governor's Task Force on Prescription Drug Overdose, and I can 
say that one of the good things and the reason I think this 
task force is working and the implementation plan has been 
published is that there are so many different aspects. We have 
pharmacists, we have medical doctors, we have mental health 
treatment providers, we have law enforcement, we have state 
police, local police, sheriffs. The Federal Government has a 
representative there. We are all represented there, and it has 
been broken down into a treatment workgroup, a law enforcement 
workgroup, education, and also more specific on disposal, safe 
disposal of the prescription drugs. So the broad spectrum, and 
then breaking down into specific workgroups I think has 
produced a very good plan.
    Mr. Sensenbrenner. Thank you very much. My time is up.
    The gentlewoman from California, Ms. Chu.
    Ms. Chu. Yes. Ms. Pacheco, I am so impressed by the LEAD 
program. Could you describe how the LEAD program has affected 
police and community relations in Santa Fe and what role the 
community involvement plays in LEAD, as well as what cost 
savings have been realized by implementing this program?
    Ms. Pacheco. Thank you, Mr. Chairman, Ms. Chu. Initially, 
Santa Fe had a series of meetings by all community members for 
about 9 months. We did a needs assessment. Everybody was 
involved--private business, law enforcement, mental health 
workers--and we were able to put together the LEAD program.
    The LEAD program consists of a consortium of individuals, 
Santa Fe County, the City of Santa Fe, Santa Fe Police 
Department and the District Attorney's Office, the Public 
Defender's Office. All of us get together and we have combined 
resources, manpower. We have public funding, we have private 
funding, and we get together, and I guess what I would really 
like to say is it is really wonderful to see how the police 
officers have responded to this.
    The police officers on the streets are the ones who 
originally came to us and said we need to do something, we are 
sick and tired of arresting the same people, we have nothing we 
can give them, and for us it has been very gratifying to see 
the response by the police department.
    Then the other thing that has been very gratifying to us in 
reference to the program has been that we have seen many young 
women with children, and we had not anticipated that. So we are 
also able to provide services to the children, and we really at 
first had not taken that into consideration. So what we are 
able to do now is provide services to an entire family, and we 
have found that to be very gratifying.
    Ms. Chu. Thank you.
    Mr. Riley, there have been numerous cases across the 
country where individuals who suffer chronic pain have faced 
challenges getting their properly prescribed pain medication. I 
understand that drug stores have been tightening the rules 
after the DEA has imposed record fines on pharmacies based on 
allegations that they weren't scrutinizing questionable 
prescriptions.
    I believe a careful balance has to be struck between 
attacking prescription drug abuse while not preventing 
legitimate patients from accessing pain medications. That is 
why I am a co-sponsor of H.R. 471, which is the Ensuring 
Patient Access and Effective Drug Enforcement Act, which passed 
the House in April.
    So, Mr. Riley, what steps is the DEA taking to ensure that 
patients are getting legitimate prescriptions for drug abuse, 
and how do you respond to comments that the DEA's actions to 
stop prescription drug abuse are causing an increase in the 
heroin abuse problem?
    Mr. Riley. Thank you, ma'am. I too share the concern on 
this. We are so concerned about patient access at every step, 
and we want to ensure that a legitimate health care provider 
has access to adequate medication for their patients.
    One of the biggest ways that we are doing that now is our 
relationship with the industry. There are approximately 1.5 
million registrants. Of those, about 900,000 are physicians. By 
obviously communicating back and forth with them and making 
sure that they understand what we are seeing across the country 
and trends of addiction and abuse has really brought them in 
and what we strive to do to make them our allies.
    So our education of how they view the problem is really 
important, and clearly we want to listen from the registrants 
so it is a two-way street. If you look at, for instance, what 
occurred in Florida with the pill mill situation of several 
years ago where literally you had a storefront, a small strip 
mall with several hundred people lined up around the block at 6 
a.m. waiting for it to open to obtain obviously illegal 
prescriptions, in those situations, ma'am, we move very quickly 
to cut that off.
    Of the 1.5 million registrants, obviously the vast majority 
are law abiding, but the ones that choose to break the law we 
take very seriously. But what we really strive for is patient 
access, safe and accessible medication.
    Ms. Chu. Thank you.
    I yield back.
    Mr. Sensenbrenner. The gentlewoman's time has expired.
    The gentleman from Virginia, Mr. Goodlatte.
    Mr. Goodlatte. Thank you, Mr. Chairman.
    Mr. Riley, the map you brought paints a distressing 
picture. It suggests that drug trafficking organizations, 
especially the Sinaloa Cartel, have infiltrated our Nation to a 
pretty frightening degree and have partnered with street gangs 
in this country to pedal their drugs. In many ways, it is a 
national security issue. What is the DEA doing to address that 
particular problem?
    Mr. Riley. Thank you, sir. That is my primary, biggest 
concern, having seen this change. This map that you are looking 
at would have been vastly different just 5 years ago. The role 
of heroin, the toxic business relationship that has evolved in 
virtually every corner of this country between urban street 
gangs and Mexican cartels is frightening to me. It is what 
keeps me up at night.
    What we are doing better than we have ever done, sir, is 
connecting the dots. I can tell you that Chapo Guzman, for one, 
counts and plans on the fact that cops don't talk to cops, that 
the good guys aren't sharing information, and I can assure you 
we are doing that better now.
    So our ability to attack organizations and their tentacles 
as they begin to spread across the country has never been 
better.
    Mr. Goodlatte. Are these drug trafficking organizations by 
their nature violent?
    Mr. Riley. There is no doubt in my mind, having done this 
job in cities across the country for 30 years, I have never 
seen violence connected to trafficking----
    Mr. Goodlatte. Are these the people you are targeting?
    Mr. Riley. Many of them are parts of organizations that are 
extremely violent.
    Mr. Goodlatte. How many drug possession offenders, meaning 
those who possess only enough for personal use, does the DEA 
refer for Federal prosecution?
    Mr. Riley. In my experience, virtually none. Our goal is to 
attack the highest levels possible so that we can really hurt 
the organization from start to finish. With our limited 
resources, sir, that is the most effective way for us to make a 
difference across the country.
    Mr. Goodlatte. Let me turn to Ms. Parr and Ms. Pacheco and 
ask a similar question.
    Ms. Parr, is violence regularly associated with drug 
trafficking and distribution?
    Ms. Parr. Mr. Chair, yes, I would definitely agree with 
that statement. We have seen in Chesapeake, which is a very 
safe community, our shootings are mainly between gangs who are 
fighting over turf, where they are going to sell their drugs.
    Mr. Goodlatte. What kind of violence do you see associated 
with heroin use and distribution?
    Ms. Parr. With heroin use?
    Mr. Goodlatte. And distribution.
    Ms. Parr. With the heroin use, the violence is not so much. 
It is more the property crimes for heroin users because they 
are stealing to support their habits. We have seen an increase 
in prostitution in Chesapeake because that is the way some 
women are making the money to support their habits.
    As far as distributing the heroin, again that would be the 
gun battles that are on our city streets and in our 
neighborhoods that expose innocent people to the gunfire.
    Mr. Goodlatte. Does it extend into gang violence over turf?
    Ms. Parr. Yes.
    Mr. Goodlatte. Sales territory, if you will?
    Ms. Parr. Yes. We have gangs in Chesapeake, in all areas of 
Chesapeake. We have over 300 square miles, and there is a lot 
of turf to fight over, and when they see an opening, they are 
going to go there.
    Mr. Goodlatte. And is there a nexus between heroin 
trafficking and other criminal acts by these drug organizations 
or gangs?
    Ms. Parr. Yes, sir. Whenever you have the trafficking, the 
drug trafficking, then you are also going to see an increase in 
the prostitution that is coming into the area, and also 
robberies. I mean, we have gang members robbing other gang 
members, drug dealers robbing and shooting other gang members.
    Mr. Goodlatte. Thank you.
    Ms. Pacheco, do you want to respond to the same? Is 
violence regularly associated with drug trafficking and 
distribution?
    Ms. Pacheco. Yes, sir, it is, and it has become worse.
    Mr. Goodlatte. And what kind of violence do you see in New 
Mexico?
    Ms. Pacheco. There have been many shootings.
    We have had a few executions as a result over trafficking.
    Mr. Goodlatte. Do you have the same problem with the nexus 
between gangs and the drug organizations? The gangs are their 
local sales organizations, if you will, for the Sinaloa Cartel 
and other drug distribution organizations?
    Ms. Pacheco. We definitely are aware of the fact, because 
we are a border state. We definitely see heroin coming in from 
Mexico fairly frequently, especially in Northern New Mexico. I 
couldn't say specifically which cartel it is associated with, 
but we definitely see a lot of drugs coming in from the border, 
sir.
    Mr. Goodlatte. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Sensenbrenner. Thank you very much.
    The other gentleman from Virginia, Mr. Forbes.
    Mr. Forbes. Mr. Chairman, thank you.
    Ms. Pacheco, we are looking at these programs to stop 
recidivism. Did your organization or have you done any studies 
to look across the country at the faith-based programs that 
have worked incredibly successfully in trying to stop 
recidivism? Have you all done an analysis of that? And 
specifically, have we looked at their success rates and also 
impediments that we are now putting in front of them to stop 
them from doing some of the work that they are doing? Did you 
all make any kind of investigation of that?
    Ms. Pacheco. Not really, sir. This is--LEAD is a fairly new 
concept and there really isn't another model to compare it to.
    Mr. Forbes. The only thing I would say is this. Oftentimes, 
we love to create new wheels and reinvent the wheel, but we 
have had some incredibly successful programs around the country 
that we have put one impediment after the other to them doing a 
complimentary role with what you are doing. At some point in 
time, we need to take a look at that and analyze that.
    Mr. Riley, let me ask you this question, following up on 
the Chairman's statement. You know, we have had testimony in 
here that today if we look across the country, the gang 
membership in this country would equal the fourth largest army 
in the world. And we have also had testimony--and this is both 
Administrations, not a push on just one--that in some of the 
most violent gangs that are serving as these networks, that at 
least 85 percent of them are coming in here illegally. So they 
are bypassing any prevention programs or anything that we are 
doing, getting into these gangs. It shocked us the other day to 
find out the Secretary of Homeland Security didn't even know if 
we were asking people if they were members of violent gangs 
before we released them.
    Do you have any connectivity as to just how important those 
gangs are in this distribution process?
    Mr. Riley. Sir, I think they have become almost crucial to 
the Mexican cartels. Speaking just for Chicago and the Midwest, 
there are over 150,000 documented street gang members. Largely 
they make their living from putting drugs on the street, 
supplied by the cartels. Heroin is now their drug of choice, 
and the way that they regulate themselves, sir, is by the 
barrel of a gun.
    So this is an enormity in terms of what we are seeing 
across the country, and it is extremely toxic. And that is why 
it is really important for law enforcement to be involved, to 
attack the organizations, not just what is occurring on the 
street. Obviously, we will work with our state and local 
counterparts to intervene in violent acts, but to make sure 
that the integrity of those cases are worked to the highest 
level so that we can have an impact on the organization itself 
and the community.
    Mr. Forbes. And this Committee has worked to do that. 
Chairman Sensenbrenner actually got some pretty sophisticated 
gang legislation out of here. Unfortunately, it got bogged down 
in the Senate and we couldn't see it come out.
    Ms. Parr, let me ask you and Mr. Riley this question. On 
July 14th, five individuals from Portsmouth and Chesapeake were 
arrested on Federal conspiracy charges of manufacturing, 
distributing and possession with intent to distribute heroin as 
part of an investigation led by the FBI's Norfolk Field Office 
and Chesapeake Police Department. According to court documents 
obtained by a local news channel, the investigation involved 75 
kilograms of heroin sold between 2013 and 2015.
    To put that in perspective, that is equivalent to over 2 
million doses, which is enough to give everyone in Hampton 
Roads a high off of heroin.
    With that said, can you give us any details about those 
arrests, or more particularly the level of coordination between 
local, state, and Federal Governments? And were there any 
barriers that you would suggest were problematic that we could 
work on eliminating for you?
    Ms. Parr. Mr. Chair, that recent arrest I think is a prime 
and great example of the cooperation that we have in South 
Hampton Roads, particularly between Chesapeake, Portsmouth, 
Suffolk, and the U.S. Attorney's Office, the DEA, and FBI. We 
have worked together quite well on many cases.
    In this case, I did not see any obstacles as everybody was 
fully aware of what was going on as far as the investigation 
was going, and it was very well organized as to the execution 
of the search warrants.
    You did state the amount of heroin and the money that they 
were making off of this. One thing I would like to point out, 
though, is that in one of those homes where there was a search 
warrant executed in Suffolk, there were many children in that 
home, and the information is that $50,000 was counted every 
other day in that house with those children there because of 
the heroin sales, and that heroin was cut and prepared on the 
dinner table. I think that when we look at that and we look at 
the children who were exposed to this, we have got to do 
something.
    Mr. Forbes. Thank you. My time has expired, but I can talk 
to you another time about that.
    I yield back.
    Mr. Sensenbrenner. Thank you.
    The gentleman from South Carolina, Mr. Gowdy.
    Mr. Gowdy. Thank you, Mr. Chairman.
    Special Agent Riley, I want to thank you for your service 
and bring to your attention the excellent work of the DEA 
agents in the upstate of South Carolina who are a credit to 
your agency.
    I am not very good with math, which means I am in the right 
line of work, so I need you to help me a little bit. I think 
that it takes 28 grams of cocaine base to trigger the mandatory 
minimum, the 5-year mandatory minimum?
    Mr. Riley. I believe that is true.
    Mr. Gowdy. And 28 grams of base would be roughly equivalent 
to 112 dosage units, I believe, assuming .25 grams for a dosage 
unit. So to get 5 years mandatory minimum in prison, you need 
112 dosage units of cocaine base or crack cocaine.
    Mr. Riley. Yes, sir.
    Mr. Gowdy. All right. And it takes 500 grams of powder to 
reach that same 5-year mandatory minimum, which would be about 
500 dosage units, because it is about a gram a dosage unit when 
you are dealing with powder.
    Mr. Riley. Yes, sir.
    Mr. Gowdy. Now, heroin, it takes 100 grams, I believe, of 
heroin to reach that same threshold, but that is 3,000 dosage 
units. So why could you go to prison for 5 years for 112 dosage 
units of crack cocaine, but 3,000 dosage units of heroin is 
what it takes to trigger that 5-year mandatory minimum? That 
just seems absurd to me.
    Mr. Riley. Well, clearly, on the law enforcement side, we 
are cops.
    Mr. Gowdy. Right.
    Mr. Riley. We are doing the best we can with the laws that 
are currently out there.
    Mr. Gowdy. You are, which is why, when there is a 
discussion about reforming mandatory minimums, it is important 
to hear from law enforcement officers.
    One thing we could do is just equalize what it takes to 
trigger a mandatory minimum. I mean, if you are having a 
problem with heroin and it requires 3,000 dosage units to reach 
that 5-year threshold, but it only takes 100 dosage units of 
crack cocaine, it is pretty easy even for me to see that one 
thing that could be done with respect to heroin.
    I know folks, everybody in Congress doesn't like mandatory 
minimums. Most folks in law enforcement like them, but 
everybody in Congress doesn't like them. But I want to ask you 
this: How many folks are serving Federal prison sentences for 
simple possession of a drug?
    Mr. Riley. I have been doing this for 30 years, and I can 
tell you, nobody as a result of my investigations.
    Mr. Gowdy. Yes, I couldn't find any either. I haven't done 
it as long as you. I couldn't find anybody sitting in a Federal 
prison for simple possession of a controlled substance.
    How about--here is another phrase I hear from time to 
time--low-level, non-violent drug offenders? How many of those 
did you target for investigation when you were a DEA agent?
    Mr. Riley. None, sir.
    Mr. Gowdy. Right. DEA wouldn't target low-level, non-
violent drug offenders. They would go to the state prosecutor, 
right?
    Mr. Riley. No, sir. We would go after the largest 
traffickers we could identify and the largest organizations.
    Mr. Gowdy. Right. So this mythology that our Federal 
prisons are full of low-level, non-violent offenders, the 
statistics and your 30 years in law enforcement simply just 
doesn't bear that out, do they?
    Mr. Riley. Not based off the investigations that I was 
involved in.
    Mr. Gowdy. I have a colleague who was a prosecutor in a 
former life, Joe E. Kennedy from Massachusetts, a very 
conscientious colleague from the very first day he set foot in 
Congress, who shared with us his concern about the heroin 
epidemic, and he wanted and has asked in the past about the 
interconnectivity, the relationship between prescription drugs 
and heroin. Who can speak to that on behalf of my colleague, 
Mr. Kennedy, who raises a pretty good question?
    Mr. Botticelli. And I think it is a real concern here that, 
as we talked about before, four-fifths of the new users to 
heroin started using prescription pain medication, and because 
of some of the economics of what it costs to buy a prescription 
pain medication on the street versus how cheap pure heroin is, 
we see that transition. I think this is where intervention and 
treatment and diminishing the vast over-prescribing of 
prescription pain medication that is happening right now is 
particularly important in terms of our efforts.
    Mr. Gowdy. Quickly; I have 25 seconds. Drug court, 
tremendous believer in drug court, saw lives changed. But 
heroin is hard to get off. In fact, it was the hardest drug for 
folks to quit back in my previous job. So what do we need to do 
with heroin to make it where more folks are getting off of it 
through drug courts?
    Mr. Botticelli. Coincidentally, I just spoke this morning 
at the National Association of Drug Court Professionals, 5,000 
people from across the country who are literally saving lives 
by giving people a second chance, by giving them good care and 
treatment with accountability.
    Part of what we know to be effective, particularly for 
people with heroin use, is that medications, when combined with 
other therapies, become critically important, and the evidence 
that people with opiate addiction or prescription drug 
addiction without medications fail a significant portion of the 
time.
    So we have actually been working with our treatment 
programs, with our drug courts, and using our Federal resources 
to support increased access to these medications as part of a 
comprehensive strategy in terms of what we know to be the most 
effective treatment for people with opioid use disorders.
    Mr. Gowdy. Thank you, Mr. Chairman.
    Mr. Sensenbrenner. The gentleman's time has expired.
    The gentleman from Michigan, Mr. Bishop.
    Mr. Bishop. Thank you, Mr. Chair. And thank you to the 
panel. I appreciate your testimony today on this very important 
issue.
    As a former local prosecutor myself, I had an opportunity 
to prosecute many drug-related offenses. But I can tell you, in 
my experience, I never saw this level of heroin in the 
marketplace. It is troubling, especially as I have school-age 
children and I hear too many stories. It is very disconcerting 
for a parent and someone like me who is in elected government 
looking for solutions, and I appreciate your willingness to be 
a part of the solution-making process.
    I recently met with a group of local law enforcement 
officers, my local county sheriffs and several others, to talk 
about the issue. Sheriff Bouchard, and also our sheriff in 
Livingston County, and the statistics that they shared are 
alarming, and they have piqued my interest, and I want to do 
whatever I can to be a part of the solution.
    In Livingston County, they had 34 heroin overdoses that 
resulted in deaths last year alone. In Oakland County, they 
used to have between 40 and 45 heroin-related overdoses per 
year. But last year, over the past 2 years I should say, that 
number has increased to an average of 200. In Ingham County, 
the other county that I represent, which includes the capital 
of our state, Lansing, they had 28 heroin-related deaths last 
year. That is a number that has increased every year 
exponentially.
    So I would agree that this issue is one that deserves our 
immediate attention, and I want to thank the Chairman of this 
Committee, the main Committee, Chairman Goodlatte, and the 
Chairman of the Subcommittee for raising these issues and 
making sure that we identify these as primary concerns and that 
we do whatever we can to address them.
    But, Director, I would like to start with you, if I could. 
It is clear from what I am hearing in my district that this 
issue cuts across all kinds of demographic lines. What are we 
doing to ensure that the response to this epidemic is 
comprehensive and holistic? Are we engaging with these local 
leaders, local law enforcement? When I was a local prosecutor, 
we had all kinds of collaborative efforts between local law 
enforcement and DEA, and I appreciate your comments about drug 
courts and alternative sentencing that is available. Can you 
share with us a little bit more about what you are doing?
    Mr. Botticelli. Sure. I think we obviously acknowledge the 
fact of why we can have a Federal response. Really, it is state 
and local responses where the rubber meets the road. It is an 
obligation of our office to make sure that states and locals 
have the resources that they need to be able to do the work and 
to identify the issues and to work collaboratively at the state 
and local level.
    So we have a number of initiatives. In addition to Federal 
treatment funding, we also support through our high-intensity 
drug trafficking areas, which our counties designated as drug 
trafficking areas to work with state and local law enforcement 
to share intelligence, to go after cases. Many of them are 
focused on heroin issues. And I will say that many of our 
programs are also continuing to support prevention and 
education programs as well. So they try to work across the 
spectrum.
    Our office also supports what is called drug-free community 
programs, and these are programs and grants to support 
community-based, locally-driven prevention programs at the 
local level, because every community looks different, but every 
community needs to have all of the key players on board as part 
of the solution.
    So we really acknowledge and try to continue to support 
state and local efforts because we know that we can do as much 
as we can at the Federal level, but it also requires state and 
local partnership to make it really real.
    Mr. Bishop. Thank you, sir.
    Mr. Riley, in your testimony, you didn't make reference to 
this but I am wondering if you can share with me legalization 
of marijuana at the local and state level. Can you tell us how 
that is influencing these markets and whether or not that has 
led to the increase in heroin in our country, and if it has 
shifted the focus away from marijuana and we are focused now on 
methamphetamine, heroin, and other types of drugs?
    Mr. Riley. Well, I think it goes to really the market 
genius of the cartels in particular. They have seen, and I do 
believe they have seen the spread of prescription drug abuse, 
and they know that at some point that availability does cease. 
Thus begins that long road to heroin, and we have seen that 
across the country. So I believe it is much as it was 10 years 
ago when we were battling methamphetamine. With the help of 
Congress, we were able to legislate primary precursors out, 
pseudo-ephedrine and ephedrine, and we saw a drastic reduction 
in the amount of domestic laboratories.
    However, the cartels recognized that there still was a 
tremendous addiction issue. So, what did they do? They were 
able to produce methamphetamine in 50- and 100-pound cooks and 
provide that to the areas in which previously had been 
supported domestically. So as I look at this problem, sir, I 
think it truly is battling the new face of organized crime, and 
I am so glad the Committee recognized what has been troubling 
me for a while, the connection between domestic street gangs 
and the cartels. It truly is the new face of organized crime as 
I see it in this country, and law enforcement needs to be fluid 
enough to adapt to attack that relationship, because by doing 
that we can solve violence on the street but at the same time 
attack the organizations that are responsible for all the 
drugs.
    Mr. Sensenbrenner. The gentleman's time has expired.
    The gentleman from Idaho, Mr. Labrador.
    Mr. Labrador. Thank you, Mr. Chairman.
    I would like to thank all the witnesses for being here 
today and for your important testimony on the rise of heroin 
use across the United States.
    One area of particular concern that I have that I would 
like to address is the expanded population of heroin users. Mr. 
Riley, in your written testimony you mention that in 2013 
169,000 people over the age of 12 used heroin for the first 
time within the past year, with the average age of first-time 
users at around 25 years old. You also cited data that 
indicated that of those heroin initiates, as they are called, 
86 percent of them were prior prescription drug users.
    I understand that your agency is developing a task force to 
confront the use, abuse, and trafficking of heroin in America, 
but what specifically is being done to address the rise in 
addiction from prescription drugs?
    Mr. Riley. Well, sir, I think what we are doing today is 
important. Awareness is really important. Prior to leaving 
Chicago, I attended a meeting about 2 years before I departed 
and there were about 100 concerned people in the room. I 
attended that same meeting 3 years later and there were over 
2,000 people concerned with the whole heroin issue, and 
unfortunately many of them were parents. What strikes me most 
is many of these parents had no idea their kids--and I am 
talking high school-age kids--were involved with prescription 
drug abuse which led to heroin, and many of them didn't find 
out until they were on their way to the emergency room.
    So law enforcement attacking the organizations, sir, is 
crucial, and that is what we do around the clock. And I have to 
tell you, we are doing great work. But the awareness of 
everybody in the community to this issue is really going to 
strengthen us as we go after these organizations.
    So when we look across the board to parents, educators, 
community leaders, faith-based practitioners, everybody plays a 
role. While we will do our job going after the bad guys, we 
can't do it alone. We need the help of everybody, especially 
parents.
    Mr. Labrador. Excellent. I understand many of these users 
are initially receiving prescription drugs through legitimate 
means, leading to an increase in usage among traditionally 
untouched populations. What does the agency propose for 
addressing the fundamental problem of addiction?
    Mr. Riley. Well, clearly we are working with a variety of 
different agencies to try to get the word out. Also, one of the 
problems we faced--and again, it is an awareness issue--is 
today's heroin on the street is being smoked and snorted 
initially. So initially, gone is the fear of AIDS or hepatitis 
because of a needle. So we are seeing a lot younger people try 
heroin almost as a recreational drug. The statistics show that 
they eventually will go to needle use, but I think it does have 
a lot to do with why we are seeing younger and younger addicts.
    Mr. Labrador. Mr. Botticelli?
    Mr. Botticelli. Congressman, if I could add to those 
comments. To your point, focusing on the prescription drug 
problem is a top priority. First and foremost, we really need 
to reign in over-prescribing of prescription pain medication. 
Our office has proposed mandatory continuing medical education 
for every prescriber. Again, we want a balanced approach. We 
want to make sure people are getting appropriate pain 
medication. We don't want the pendulum to swing to the other 
way, and that is why we want to make sure that every prescriber 
has at least some minimum education about safe prescribing 
practices.
    We know that about 70 percent of people who start misusing 
them are getting them free from friends and family, and that is 
why Federal and local take-back programs to get the drugs out 
of people's homes becomes equally important.
    We have also been promoting prescription drug monitoring 
programs that allow physicians to check databases to see if 
someone might be going from doctor to doctor to be able to 
intervene at that point, as well as law enforcement responses. 
We just got briefed by the DEA in terms of a huge takedown in 
terms of bad doctors and bad practices in the south. So we know 
that this needs a holistic response.
    Mr. Labrador. Thank you very much.
    Ms. Pacheco, you also mentioned the need for sentencing 
reform to address low-level, non-violent offenders who end up 
in jail with mandatory minimum sentences with no alternative 
for addressing their problems. I agree that mandatory minimums 
have proven destructive in addressing drug crimes and have 
resulted in wasting valuable resources. In your view, what is 
the best alternative for addressing addiction and the causes of 
drug abuse, given your experiences where drug addiction abuse 
is pervasive within the culture?
    Ms. Pacheco. I have been doing this for many, many years, 
sir, and it always comes down to resources and money for drug 
treatment. But we see over and over the same people in and out, 
in and out, without appropriate resources. New Mexico, as you 
know, is one of the poorer states. We don't have the type of 
tax base to provide services. But a program like LEAD, for 
example, it is pre-arrest, pre-booking that shows it can save 
us money, and that money then can go into treatment and the 
wrap-around services that many of these individuals need, 
because that is kind of where it is at.
    Someone who is in the cycle of addiction, they need as much 
support as possible, and that is kind of what we are doing. We 
are transferring resources from the back end to the front end 
to help them and to keep them out of the system, sir.
    Mr. Labrador. Thank you.
    Mr. Sensenbrenner. The time of the gentleman has expired.
    This concludes today's hearing, and thanks to our witnesses 
for attending.
    Without objection, all Members will have 5 legislative days 
to submit additional written questions for the witnesses and 
additional materials for the record.
    And without objection, the hearing is adjourned.
    [Whereupon, at 11:21 a.m., the Subcommittee was adjourned.]
    

                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

       Questions for the Record submitted to John (Jack) Riley, 
       Acting Deputy Administrator, Drug Enforcement Association*
---------------------------------------------------------------------------
    *The Committee had not received a response to these questions at 
the time this hearing record was finalized and submitted for printing 
on November 17, 2015.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>
</pre></body></html>
